                                                     U.S. Department of Justice


                                                     United States Attorney
                                                     Eastern District of New York

                                                     271 Cadman Plaza East
                                                     Brooklyn, New York

FOR IMMEDIATE RELEASE                                November 5, 2009

Contacts:

Robert Nardoza
United States Attorney’s Office
(718) 254-6323

                                     PRESS RELEASE

        THE UNITED STATES AND TUTOR PERINI CORPORATION SETTLE
                 CIVIL FRAUD CLAIMS FOR $9.75 MILLION

  Settlement Resolves Claims That Tutor Perini Fraudulently Reported Minority and Disadvantaged
   Business Enterprises Were Performing Subcontracted Work on Federally Funded Public Works
                     Contracts with New York City and the State of New York

        Benton J. Campbell, United States Attorney for the Eastern District of New York, today
announced the settlement of claims that Tutor Perini Corporation, formerly Perini Corporation
(“Perini”), a publicly-traded construction services corporation, falsely and fraudulently reported
that certain minority and disadvantaged business enterprises (“DBEs”) were performing
subcontracted work on federally funded public works contracts with the City and State of New
York, when in fact non-DBE subcontractors were performing the work. Pursuant to the
settlement, Perini has paid the United States $9,750,000. The settlement does not constitute an
admission of liability by Perini.

        In approximately 1980, the United States Department of Transportation (USDOT) issued
regulations in connection with a program to increase the participation of DBEs in federally-
funded public construction contracts relating to transportation. Pursuant to those regulations,
recipients of USDOT construction grants, specifically, state and local governments, are required
to establish DBE programs that set specific goals for the percentage of work to be awarded to
DBEs, and ensure that good-faith efforts are made by general contractors to engage qualified
DBEs as subcontractors. Under the applicable regulations, not less than 10 percent of the
authorized funds are to be expended with DBEs. The New York State Department of
Transportation (NYSDOT) and the City of New York, acting through the New York City
Department of Transportation (NYCDOT), have established DBE programs and are recipients of
USDOT construction grants.

       The settlement announced today is the result of a joint investigation conducted by the
Federal Construction Fraud Task Force, which was organized by the United States Attorney’s
                                                2



Office in June 1999 to investigate fraud and corruption in the construction industry. In addition
to the U.S. Attorney’s Office, the members of the Task Force include the Internal Revenue
Service, Criminal Investigation Division; the USDOT Office of the Inspector General; the U.S.
Department of Labor Office of the Inspector General; the New York City Department of
Investigation; the Inspector General for the Metropolitan Transportation Authority; and the
Inspector General for the Port Authority of New York and New Jersey.

       “The DBE programs were established to increase the participation of minority and
disadvantaged businesses in the federal, state, and local contracting process,” stated United
States Attorney Campbell. “This office will move vigorously against companies that seek to
subvert this important and laudable goal.”

      The government’s case was litigated by Assistant United States Attorney Thomas A.
McFarland.
